WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

Arlene Fry

20-861
Rand Construction Corporation
v.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
□ Please enter my appearance as Counsel of Record for all respondents.
□ There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

□ I am a member of the Bar of the Supreme Court of the United States.
□ I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be ﬁled by a Bar member.
Signature

January 15, 2021
James E. Tysse
(Type or print) Name
Date:

□ Mr.

□ Ms.

□ Mrs.

□ Miss

Akin Gump Strauss Hauer & Feld LLP
2001 K Street NW
Address
Washington, DC
20006
City & State
Zip
202-887-4571
jtysse@akingump.com
Phone
Email
Firm

A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC:

Adam Augustine Carter; Michael L. Foreman

